App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-13218-A
________________________
MANUEL LOPEZ-CASTRO,
Petitioner–appellant,
versus
UNITED STATES OF AMERICA,
Respondent–appellee.
________________________
Appeals from the United States District Court
for the Southern District of Florida
________________________
(May 23, 2019)
ORDER:
To merit a certificate of appealability, appellant
must show that reasonable jurists would find
debatable both (1) the merits of an underlying claim,
and (2) the procedural issues that he seeks to raise.
See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S.
473, 478 (2000). Because appellant has failed to make
the requisite showing, his motion for a certificate of
appealability is DENIED.
/s/ Britt Grant
UNITED STATES CIRCUIT JUDGE

App. 2
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No.: 18-21716-CIV-DIMITROULEAS
(84-853-CR-KEHOE)
MANUEL LOPEZ-CASTRO,
Movant,
vs.
UNITED STATES OF AMERICA,
Respondent.
(May 29, 2018)
FINAL JUDGMENT AND ORDER DISMISSING
MOTION TO VACATE
WILLIAM P. DIMITOULEAS, District Judge.
THIS CAUSE is before the Court on Movant’s
(Lopez-Castro) May 1, 2018 Motion to Vacate. [DE-1].
The Court has considered the Government’s May 7,
2018 Response [DE-5] and Movant’s May 14, 2018
Reply [DE-6]. The Court has reviewed the court files to
the extent that they are available and the Pre
Sentence Investigation Report (PSIR) conducted in
93-224-CR and finds as follows:
1. In 1984 Lopez-Castro was indicted and charged
with Conspiracy RICO, RICO, eleven (11) counts of
Violation of the Travel Act and six (6) counts of Wire
Fraud [DE-6-2]. Trial commenced on August 5, 1985.
On October 7, 1985, Lopez-Castro was found guilty of

App. 3
RICO Conspiracy, RICO, six (6) counts of Violation of
the Travel Act and three (3) counts of Wire Fraud.
[DE-6-1, p. 23]. He was acquitted on eight (8) counts.
The crimes for which there was a conviction occurred
on:
RICO CONSPIRACY
I

January 1977 until the date of the
Indictment
RICO

II

January 1977 until the date of the
Indictment
TRAVEL ACTS

XI

January 23, 1980 (Racketeering Act 29
[DE-6-2, p.19]

XIII

April 2, 1980 (Racketeering Act 31
[DE-6-2, p.19]

XIV

April 3, 1980 (Racketeering Act 32
[DE-6-2, p. 19]

XVI

June 10, 1980 (Racketeering Act 34
[DE-6-2, p. 20]

XIX

January 19, 1981 (Racketeering Act 37
[DE-6-2, p. 20]

XXII

September 16, 1981(Racketeering Act 40
[DE-6-2, p. 21]
WIRE FRAUD

XXV

March 26, 1980

XXVI

April 2, 1980

App. 4
XXVIII

June 10, 1980

XXIX

January 19, 1981

Predicate Act 25 also charged Lopez-Castro with a
Travel Act violation in June, 1979. [DE-6-2, p. 18]. On
November 15, 1985, Lopez-Castro’s Motion for New
Trial was denied.
2. On December 16, 1985, Lopez-Castro was
sentenced to twenty-five (25) years in prison;1 He filed
a Notice of Appeal on December 26, 1985. It was
dismissed on April 7, 1986. Mandate issued on April
23, 1986. When he failed to voluntarily surrender
himself, he became a fugitive. [DE-6-1, p. 26].
93-224-CR
3. On May 14, 1993, he was indicted and charged
with Failure to Surrender on January 28, 1986 at the
Federal Correctional Institute in Tallahassee to start
serving his sentence. [DE-1, in 93-224-CR]. He took up
residence in Mexico, but was deported to the United
States in February, 2013 [DE-21 in 93-224CR]. On
April 15, 2013, Lopez-Castro pled guilty pursuant to a
plea agreement. [DE-20 in 93-224-CR]. The plea
agreement recognized that he would be eligible for
parole. On June 24, 2013, this Court agreed with the
joint recommendation of counsel and imposed a five (5)
year sentence consecutive to 84-853-CR and 85-146-CR

1

Twenty (20) years for RICO Conspiracy and five (5) years
consecutive for RICO and the other nine (9) counts. [DE-6-1, p.
25]. He was sentenced to a consecutive two (2) year sentence in
85-146-CR. Lopez-Castro was ordered to surrender to Eglin or
Maxwell AFB. A bench warrant was requested on January 30,
1986. His bond was revoked on February 6, 1986.

App. 5
[DE-29 in 93-224CR]. On October 24, 2013, this Court
denied a Motion to Mitigate under Rule 35.. [DE-35 in
93-224-CR].
14-22578-CIV
4. On July 10, 2014, Lopez-Castro filed a Motion to
Correct the Sentence in 93-224-CR. [DE-1 in
14-22578-CIV]. On July 6, 2014, the Court directed the
Clerk to strike the sentence “The Sentence is imposed
pursuant to the Sentencing Reform Act of 1984.” [DE-6
in 14-22578-CIV].
18-21716-CIV
5. In this untimely Motion to Vacate, Lopez-Castro
first contends that he is actually innocent of all
charges. He cites an appeal of a former co-defendant
from a subsequent trial after a hung jury: U.S. v.
Corona, 885 F. 2d 766 (11th Cir. 1989). In that appeal,
the Eleventh Circuit found at least two predicate acts
had existed prior to the termination of the business
enterprise to justify the RICO conviction. Id., at 774.
Those Travel Act, predicate acts occurred while the
business enterprise was still ongoing, at least until
Fernandez’ arrest in New Orleans in March, 1981 and
probably until December, 1981. Here, sufficient timely
Travel Act convictions and predicate acts were found
to justify Lopez-Castro’s convictions. He contends that
the alleged wire fraud and travel act activities were
non-criminal. However, even if McNally’s2 later
invalidation of Mail Fraud convictions applies to
previous Wire Fraud convictions; sufficient Travel Act
violations remain to justify the jury’s decision and the
2

McNally v. U.S., 483 U.S. 350 (1987).

App. 6
judge’s sentence. Lopez-Castro’s argument that he
was merely an attorney conducting real estate
transactions who did not intend to distribute proceeds
to criminal participants was apparently rejected by the
jury. Second, Lopez-Castro contends that the jury
received erroneous jury instructions. Third, he
contends he has been denied parole eligibility. Fourth,
he complains about consecutive sentences on the
substantive counts.
6. This court agrees with the Government’s
response.
A. First, actual innocence invokes factual not legal
innocence. Johnson v. Alabama, 256 F. 3d 1156, 1171
(11th Cir. 2001); Hamm v. U.S., 2018 WL 1580359
(11th Cir. 2018). Lopez-Castro cites no newly
discovered evidence. His legal arguments are based on
legal authority that is thirty (30) years old. No due
diligence has been shown. Lopez-Castro’s conclusory
allegation does not merit any relief. As indicated
above, he fails to explain how the Travel Act
convictions are invalid. It was up to the jury to decide
whether he was merely acting as a lawyer and
receiving a fee for that. Here, there was more than just
a normal purchase and sale.
B. Second, Lopez-Castro has procedurally defaulted
any complaint about jury instructions, as matters that
could have been raised on direct appeal should not be
heard on collateral attack. Lynn v. U.S., 365 F. 3d
1225, 1234 (11th Cir. 2004). Moreover, there has been
no showing that the instructions were erroneous. The
instructions given [DE-6-3, pp. 29-31] substantially
conform to the comparable jury instruction found at
Eleventh Circuit Pattern Jury Instruction O71.

App. 7
Additionally, the Corona appeal invalidated only two
Travel Act counts3 and Lopez-Castro was not charged
in those counts. Furthermore, Fernandez’s fugitive
status in 1981 occurred after most, if not all, of
Lopez-Castro’s substantive and predicate crimes had
already occurred. McNally v. U.S., 483 U.S. 350 (1987)
found that the Mail Fraud statute was limited in scope
to the protection of property rights. Here, there was
sufficient evidence to support the Travel Act and Wire
Fraud counts. U.S. v. Lignarado, 770 F. 2d 971 (11th
Cir. 1985). Lopez-Castro’s contention is that he is not
factually guilty of the crimes because he did not
distribute property to someone entitled to proceeds
from a criminal enterprise. He argues that his “money
laundering” activities were not illegal in 1985. Again,
he is arguing legal, not factual innocence.
C. Third, any complaint about a denial of his parole
eligibility is not properly before this court on a motion
to vacate. After exhausting his administrative
remedies, Lopez-Castro’s relief could only be through
a habeas petition pursuant to 28 U.S.C. § 2241 in the
district where he is housed. (E.D. Texas).
D. Fourth, Lopez-Castro received consecutive
sentences on more than just the Travel Act and
Wire-Fraud counts. No prejudice has been shown.
Lopez-Castro also contends that if any of his
convictions are invalidated that he is entitled to a de
novo sentencing. The Court would normally deny that

3

Counts VI and VIII which apparently referred to a
Superseding Indictment that was the basis for a later trial against
the Coronas, after a hung-jury in the 1985 trial. U.S. v. Corona,
804 F. 2d 1568 (11th Cir. 1986) cert. denied, 481 U.S. 1017 (1987).

App. 8
request under the “concurrent sentence doctrine”. See,
U.S. v. Fuentes-Jimenez, 750 F. 2d 1495, 1497 (11th
Cir. 1985); In re: Williams, 826 F. 3d 1351, 1356 (11th
Cir. 2016). However, the Eleventh Circuit may have
recently rejected that tool of judicial economy. See,
Cazy v. U.S., 717 Fed. Appx. 954 (11th Cir. 2017). If so,
here, it does not appear that Lopez-Castro has suffered
any adverse consequences, monetarily or otherwise,
from concurrent sentences on the Wire Fraud counts;
there appears to have only been a $25,000 fine on
Count One. [DE-6-1, p. 25]. In any event, the Court is
familiar with Movant in that in 2013, the Court
reviewed a PSIR and imposed a sentence on
Lopez-Castro; no reduction in the twenty-five (25)
year, parole eligible sentence would likely occur; if
anything, the Court could take into account
Lopez-Castro’s twenty-seven (27) year status as a
fugitive. Movants should be careful what they wish for.
U.S. v. Hogg, 723 F. 3d 730, 751 (6th Cir. 2013).
E. This petition is time-barred. No basis for
equitable tolling has been shown.
Wherefore, Movant’s Motion to Vacate [DE-1] is
Dismissed as time-barred. Alternatively, it is Denied
on the merits. The Court has again reviewed the PSIR
and denies any Rule 35 request in this case.
The Clerk shall close this case and deny any
pending motions as Moot.
DONE AND ORDERED in Chambers at Fort
Lauderdale, Broward County, Florida, this 29th day of
May, 2018.

s/ William P. Dimitouleas

WILLIAM P. DIMITOULEAS

App. 9
United States District Judge

App. 10
No. 18-13218-A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
MANUEL LOPEZ-CASTRO,
Movant/appellant,
v.
UNITED STATES OF AMERICA,
Respondent/appellee.
On Appeal from the United States District Court
for the Southern District of Florida
Appellant’s Motion for Certificate of Appealability
Appellant, Manuel Lopez-Castro, through
counsel, respectfully moves, pursuant to 28 U.S.C. §
2253(c) and Fed. R. App. P. 22(b), for a certificate of
appealability.
A.

Jurisdiction.

The district court for the Southern District of
Florida had jurisdiction pursuant to 28 U.S.C. § 2255.
Appellant Manuel Lopez-Castro filed his § 2255 motion
on April 30, 2018. DE:1. The district court denied

App. 11
relief without a hearing and denied a certificate of
appealability. DE:7. This Court has jurisdiction to
determine whether to grant a certificate of
appealability under 28 U.S.C. § 2253. Appellant is in
custody pursuant to a 25-year imprisonment sentence.
Crim-DE:369.
B.
Statement
Appealability.

of

Issues

for

Certificate

of

Appellant requests a certificate of appealability
on the following issues:
1.
Whether the district court erred in
denying 28 U.S.C. § 2255 relief where the
court concluded that a defendant is not
“actually innocent” even where
retroactively-effective precedent shows
the defendant was convicted of conduct
that does not constitute a crime.
2.
Whether the district court erred in
ruling that appellant’s wire fraud
convictions (for obstructing IRS recordcollection functions), Travel Act
convictions (for serving as real estate
counsel for a drug trafficker who
purchased real property), and RICO
convictions (for the same alleged fraud
and travel conduct) remain valid despite
contrary precedent of this Court, where
the district court judge, who was not the
trial or sentencing judge in the criminal
case, failed to conduct an evidentiary
hearing or review the trial and
sentencing record.

App. 12
3.
Whether the district court erred in
concluding that the jury instructions in
appellant’s case accurately stated
governing law where the instructions
misstated essential elements of the wire
fraud and Travel Act counts, resulting in
appellant’s conviction for lawful conduct.
4.
Whether the district court
erroneously found that there was no due
process violation and denied the request
for an evidentiary hearing where
appellant’s sentence was premised on
invalid convictions.
C.

Preliminary Statement and Standard of Review.

The district court erred in denying, without an
evidentiary hearing, appellant’s 28 U.S.C. § 2255
claims, each of which was grounded in clear violations
of appellant’s Fifth Amendment due process rights.
The district court erred procedurally and
substantively, and this Court should grant a certificate
of appealability.

Procedural History
The appeal arises from the 1984 prosecution of
appellant on an indictment charging RICO conspiracy
and substantive violation of RICO (18 U.S.C. § 1962),
Travel Act violations (18 U.S.C. § 1952), and wire
fraud violations (18 U.S.C. § 1343). Crim-DE:1. The
theory of the prosecution was that by participating in
wire fraud and Travel Act offenses, appellant joined a
RICO conspiracy that was centered on drug
distribution by other defendants. Appellant was not
alleged to have any role in the drug activity, but
instead was charged with acting as counsel for a

App. 13
member of the conspiracy who purchased real estate in
Florida. Crim-DE:1:7. Appellant proceeded to trial on
the indictment, was convicted by a jury on multiple
counts,4 and was sentenced, on December 16, 1985, to
25 years imprisonment. Crim-DE:369. Appellant
forfeited his right to appeal, violating his bond by
failing to surrender to serve the sentence. See CrimDE:439. Appellant was not re-arrested until 2012, and
his § 2255 motion, filed on April 30, 2018, fell outside
the April 24, 1997, deadline set by the Anti-terrorism
and Effective Death Penalty Act of 1996. See
Goodman v. United States, 151 F.3d 1335 (11th Cir.
1998) (AEDPA one-year deadline is April 24, 1997 for
defendants whose convictions were already final).
Appellant argued in his § 2255 motion that his
actual innocence of the offenses of conviction, as
established by retroactively-applicable controlling
precedent, permitted him to file his motion beyond the
AEDPA time limitation and excused any procedural
default otherwise applicable due to his failure to
preserve the arguments on direct appeal. See DE:1:10
(“The time bar does not apply to bar this motion
because the movant is actually innocent of the offenses
under applicable law, see McQuiggin v. Perkins, 569
U.S. 383, 392, 133 S.Ct. 1924, 1931 (2013) ... .”).5
4

Appellant was convicted of Count 1 (RICO conspiracy);
Count 2 (substantive RICO); Counts 11, 13, 14, 16, 19, and 22
(Travel Act); and Counts 25, 26, 28, 29 (wire fraud). The
underlying conduct occurred in 1980 and 1981. Crim-DE:369.
5

Appellant argued, in the alternative, that as to those claims
for which relief may be granted under Fed. R. Crim. P. 35 (1985),
the time bar under § 2255 is inapplicable and that to the extent
the district court’s statutory jurisdiction was exceeded in the
imposition of sentence, application of a time bar would be

App. 14
Appellant’s actual innocence argument rests on
binding, retroactively-effective substantive statutory
interpretation decisions rendered after appellant’s
conviction became final. The principal theory of
appellant’s prosecution was that by acting as real
estate attorney who represented a drug dealer in the
purchase of Florida real estate, appellant violated the
Travel Act prohibition against distributing illegal
proceeds to a criminal participant and committed wire
fraud by conducting these transactions for corporations
owned by the trafficker, depriving the IRS of
information necessary to fully perform its record
collection responsibility. DE:1:13–23.
The prosecution theories—(a) that appellant’s
use of funds provided to him by a drug dealer to
purchase real estate from an innocent seller
constituted illegal distribution of proceeds to a
criminal participant under 18 U.S.C. § 1952; and (b)
that defrauding the government of its right to truthful
information necessary to perform its duties constituted
fraud under federal fraud statutes, even though no
property or economic interest was at stake—were
relied on by the district court at the time of trial and
sentencing, were erroneously explained in the jury
instructions, and formed the basis for all of appellant’s
convictions, with the RICO charges against him
supported at trial only by the Travel Act and wire
fraud claims. Appellant was neither charged with nor
convicted of any other conduct than the non-criminal
conduct charged in Travel Act and wire fraud counts of
conviction.

unconstitutional. DE:1:10.

App. 15
Appellant’s § 2255 motion relied on precedent of
this Court and the Supreme Court holding that where
a defendant was prosecuted on the basis of conduct
that a retroactively-applicable decision holds is not
criminal, relief must be granted to remedy the
manifest injustice of imprisonment for lawful conduct.
See DE:1. Appellant presented three claims for relief:
(1) due process violation in the prosecution of a
defendant for non-criminal conduct; (2) due process
violation in the misinstruction of the jury on the
Travel Act and wire fraud counts on which the RICO
convictions were premised; and (3) due process
violation in imposing sentence based on materially
erroneous premises, consisting of invalid convictions
and reliance on parole release statutes not available to
appellant.
Appellant’s Claim I in his § 2255 motion was
that his convictions violate due process and are invalid
because, under retroactively-effective precedent, the
conduct alleged and proven was not criminal.
Appellant asserted that imposition of convictions and
sentences on the Travel Act, wire fraud, and RICO
offenses violates due process and exceeds federal
statutory jurisdiction because: (1) as to wire fraud
offenses and predicates, McNally v. United States, 483
U.S. 350 (1987) (holding that only financial fraud was
covered by the then-applicable version of the federal
fraud statutes), rendered the charged wire fraud
conduct—obstructing the record collection function of
the IRS, as to which there was no component or
allegation of financial fraud—outside the scope of the
wire fraud statute in 1985; (2) as to Travel Act
allegations, under this Court’s precedent established
in the years following the finality of appellant’s
conviction, assisting a criminal in transporting his own

App. 16
assets for investment or purchase does not violate the
18 U.S.C. § 1952 proscription on the travel for the
purpose of distributing criminal proceeds to other
participants, and that, under ex post facto principles,
the enactment of money laundering statutes long after
appellant’s convictions could not retroactively
criminalize his conduct. Appellant explained further
that the RICO counts were premised on the invalid
theory of Travel Act and wire fraud liability and that
there was no remaining viable basis for the RICO
counts without the defective substantive counts of
conviction. DE:1:4.
With regard to the Travel Act, appellant alleged
that the facts established at trial showed that he was
an attorney who conducted real estate investment
transactions for a client (who was a drug dealer), but
failed to show any intent or attempt to distribute
proceeds to other criminal participants as required
under the statute. DE:1:15–16. And with regard to
the wire fraud counts, none of the conduct alleged as
to, or committed by, appellant constituted an attempt
to defraud under McNally—as the trial and sentencing
district judge in the criminal case concluded in a postMcNally ruling as to co-defendants in appellant’s case
and as this Court found in the appeal from the codefendants’ conviction at a separate trial conducted
after appellant’s conviction became final. DE:1:19–22,
24. See United States v. Corona, 885 F.2d 766 (11th
Cir. 1989) (holding that under McNally, the fraud
conduct alleged in the indictment was not criminal).
Appellant contended that based on the
retroactively-effective determination of the scope of
application of the relevant statutes, he could
demonstrate “actual innocence.” See House v. Bell, 547

App. 17
U.S. 518 (2006) (describing the narrow category of
cases meeting the actual innocence standard). And
appellant argued that refusing to remedy a conviction
and sentence entered for conduct outside the scope of
any criminal statute constitutes a miscarriage of
justice and presents “extraordinary circumstances.”
See Murray v. Carrier, 477 U.S. 478, 496 (1986)
(categorizing as “an extraordinary case” the
circumstance “where a constitutional violation has
probably resulted in the conviction of one who is
actually innocent”).
Appellant’s Claim II asserted that his
convictions were infirm due to fundamentally
erroneous jury instructions that allowed the jury to
convict him of innocent conduct. Appellant argued
that the jury instructions were fundamentally
erroneous, omitting and misstating essential elements,
thereby violating due process by misinstructing the
jury as to the elements of the core alleged offenses.
Appellant asserted that the instructions permitted the
jury to convict him on RICO and other counts on the
erroneous theory that his actions—consisting of
performing real estate attorney work to facilitate the
purchase of property6—were unlawful under the
Travel Act and wire fraud statute. DE:1:23–25.
Appellant’s Claim III was that his
sentencing—and 25-year sentence (composed of a 20year statutory maximum sentence for RICO conspiracy
to run consecutive to concurrent 5-year sentences on

6

“Fernandez owned a 50-acre Ocala, Florida horse ranch worth
$1,000,000, seven beach-front acres including three buildings at Vero
Beach, several other properties, and a $90,000 boat, all bought with his drug
earnings.” Corona, 885 F.2d at 769.

App. 18
the substantive counts)—violate due process because
the district court relied on materially erroneous
premises as to invalid convictions and an illusory
understanding of parole and early-release eligibility
provisions of federal law that are inapplicable.
DE:1:25–27. Appellant alleged that in imposing
sentence, the sentencing judge relied on then-existing
statutory requirements for parole consideration. As a
result of a later-enacted statute abolishing parole,
appellant lost eligibility for parole and his sentence
was converted to a non-parolable sentence longer than
that contemplated by the sentencing judge.
Application of post-sentencing statutory changes in the
law render the sentencing decision violative of the Due
Process Clause and constitute an ex post facto
violation.
Second, appellant claimed that the sentencing
judge’s imposition of consecutive sentences on the
multiple counts of conviction resulted from the
erroneous convictions on substantive counts as to
which appellant is actually innocent even if his
conspiracy conviction were not invalidated. DE:1:6–7,
27. Because appellant’s consecutive sentences rested
on convictions of which he is actually innocent, the
sentencing violated due process.
The government argued that appellant could not
overcome his procedural default in failing to earlier
raise his claims because he had not shown due
diligence. DE:5:4, 6. The government’s opposition to
the motion was premised on procedural grounds, and
the government failed to offer any factual basis to
sustain the convictions. Nor did the government
contest appellant’s contentions that the specific
allegations made by the government in the indictment

App. 19
fall outside the scope of the relevant statutes and that
but for the wrongful convictions on the Travel Act and
wire fraud charges, there would have been no basis to
hold appellant liable for the RICO allegations.
Instead, the government claimed, wrongly, that it had
no access to the trial record, see DE:5:1 (claiming
erroneously that the criminal docket “reveals no useful
information”), and argued that since no new evidence
exists, the actual innocence standard cannot be
satisfied. DE:5:4 (arguing that appellant “cannot
possibly” show actual innocence without newly
discovered evidence). The government took the
position that the absence of an electronic record on the
case meant that the government could not represent
its view of the trial evidence offered against appellant.
DE:5:5–6 (asserting falsely that there is no “means by
which this court can judge the accuracy or lack of
accuracy of [appellant’s] allegations about what the
trial evidence showed”; asserting falsely that “[t]here
is no factual record” and no “complete record on
appeal,” and that the government would have to “try to
reproduce the record [in order] to refute” appellant’s §
2255 claims).
The government’s response failed to address the
appellant’s challenge to the fundamentally erroneous
jury instructions and did not address the merits of the
due process violation at sentencing due to reliance on
invalid convictions. Instead, the government chastised
appellant for having “the audacity to seek an
unjustifiable short-cut to relief” on actual innocence
and due process claims. DE:5:6.
In reply to the government’s response, appellant
explained: that actual innocence overcomes default
and timeliness objections; that the complete record of

App. 20
the case was in the Clerk’s office; and that the
government’s failure to acknowledge the record or to
even attempt to offer a factual basis for a valid
conviction of any of the charges was unwarranted.
DE:6:2 (characterizing as “frivolous” the government’s
argument that it could not address the actual
innocence claim because the record was not in an
electronic format); see also DE:6-1 to 6-3 (attaching
criminal docket, indictment, and jury instructions).
The district court’s order summarily denying
relief was entered within 30 days of the filing of the §
2255 motion and without the benefit of any hearing.
DE:7. In denying relief, the district court relied on a
series of alternative untimeliness and merits grounds.
DE:7:5 (“Dismissed as time-barred. Alternatively, it is
Denied on the merits.”). The district court concluded:
!

that factual innocence, for purposes of
the actual innocence doctrine, cannot be
shown by retroactively-effective
precedent proving that the defendant
was convicted for conduct that is not
criminal (DE:7:4);

!

that a § 2255 movant claiming actual
innocence is barred from relief where due
diligence is not shown in discovering the
invalidity of the conviction (DE:7:4);

!

that appellant “fail[ed] to explain how
the Travel Act convictions are invalid,”
DE:7:4;

!

that the evidence submitted “to the jury
to decide whether [appellant] was merely
acting as a lawyer and receiving a fee for
that” was in conflict and that the record

App. 21
showed that “[h]ere, there was more than
just a normal purchase and sale”
(DE:7:4);
!

that there was no showing that the
instructions were erroneous where the
Travel Act instruction matched Eleventh
Circuit Pattern Offense Instruction 71,
stating: “The instructions given [DE-6-3,
pp. 29-31] substantially conform to the
comparable jury instruction found at
Eleventh Circuit Pattern Jury
Instruction O71.” DE:7:4;

!

that there was “sufficient evidence to
support the Travel Act and Wire Fraud
counts,” DE:7:4; and

!

that appellant was not prejudiced by
reliance on invalid convictions at
sentencing because the newly-assigned
district court judge might sentence more
severely (DE:7:5);

The district court did not address the
fundamental McNally error in the wire fraud
instructions. See DE:7:4.

Standard of Review
When considering a request for a certificate of
appealability to review claims resolved on the merits
without an evidentiary hearing, the Court need only
determine whether the motion states a facially valid
claim that is not conclusively refuted by the record.
Thus, the “threshold inquiry does not require full
consideration of the factual or legal bases adduced in
support of the claims. In fact, the statute forbids it.”

App. 22

Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (test for

COA is whether jurists of reason could disagree with
failure to conduct an evidentiary hearing); see id. 537
U.S. at 338 (“We do not require petitioner [whose
petition was denied without an evidentiary hearing] to
prove, before the issuance of a COA, that some jurists
would grant the petition for habeas corpus.”). See
Johnson v. Thaler, 406 Fed.Appx. 882 (5th Cir. 2010)
(question for review authorization is whether “jurists
of reason could find it debatable whether the district
court committed a substantive or procedural error in
dismissing his habeas application”).
The requirement that even if the reviewing

court, on motion for a certificate of appealability,
concludes that an issue appears to be rightly decided
below, the motion must be granted whenever another
reasonable judge could find resolution of disputed

issues or law are not conclusively resolved against the
movant, particularly in the absence of the adversarial
testing afforded by an evidentiary hearing, shows that
the relevant review standard is notably different from
ordinary judging. Consideration of the motion for
certificate of appealability involves, in this case,
consideration of record-affecting procedural rulings,
i.e., the critical eye of another judge who might not
have so conclusively foreclosed consideration of the
totality of the record, rather than determining the
question of ultimate relief on, or denial of, the § 2255
motion.

And in reviewing the district court’s conclusions
on questions of law in this case, no deference is owed
to the decision below. Rhode v. United States, 583
F.3d 1289, 1290 (11th Cir. 2009) (explaining the denial
of relief under 28 U.S.C. § 2255 presents mixed

App. 23
questions of law and fact calling for de novo review of
the denial, with underlying factual findings reviewed
for clear error). Particularly in the present case,
because neither the government nor the district court
deemed the trial and sentencing record available (even
though the record was available, albeit not in
electronic format), no deference is owed to the district
court’s decision.
D.

Request for Certificate of Appealability.
THE MOTION FOR CERTIFICATE OF
APPEALABILITY SHOULD BE
GRANTED BECAUSE THE DISTRICT
COURT’S DENIAL, WITHOUT AN
EVIDENTIARY HEARING, OF
APPELLANT’S CLAIMS OF DUE
PROCESS VIOLATIONS RESULTING
IN HIS CONVICTIONS AND 25-YEAR
PRISON SENTENCE FOR OFFENSES
OF WHICH HE IS ACTUALLY
INNOCENT WARRANT APPELLATE
REVIEW.

Appellant was entitled to an evidentiary
hearing, upon review of the trial and sentencing
record, and ultimately relief on his 28 U.S.C. § 2255
motion, where he asserted facially meritorious claims
of actual innocence and due process violations that call
into question the integrity of the prosecution and the
extreme sentence imposed. The record and controlling
precedent show that appellant was prosecuted in 1985
for offenses that Congress had not yet made
criminal—essentially for the later-created offenses of
money laundering and non-financial fraud. The
district court’s grounds for denial of relief are
inconsistent with the manifest injustice doctrine, and

App. 24
specifically the actual innocence exception to
application of procedural default and untimeliness
restrictions. The district court’s misapplication of the
law applicable to actual innocence taints the entire
order of denial. The district court additionally erred in
misconstruing the jury instructions and the elements
of the offenses of conviction and in prejudging the
outcome of a resentencing based on events at a
subsequent sentencing for bond violation, without
consideration of the record, including prior sentencing
proceedings, in the criminal case at issue here.
The district court’s primary basis for denial of
relief was that the § 2255 motion was filed outside the
one-year AEDPA limitations period. DE:5 (“This
petition is time-barred. No basis for equitable tolling
has been shown.”). The district court’s erroneous
construction of the actual innocence doctrine to require
a showing of due diligence or equitable tolling was
squarely rejected by the Supreme Court. McQuiggin
v. Perkins, 569 U.S. 383, 392 (2013) (the timing of
presentation of an actual innocence claim cannot bar
consideration of the claim; explaining that the actual
innocence gateway flows from the “fundamental
miscarriage of justice exception” to the application of
procedural default bars and statutes of limitations).
Thus, appellant was not required to show any tolling
factor, and the government’s assertion that the timing
of the motion was relevant because there was no
complete record to review is simply false. The district
court, in contrast to the government, did not directly
dispute the existence of a complete record, but
ambiguously stated that it had “reviewed the court
files to the extent that they are available.” DE:7:1
(order making record reference only to portions of the

App. 25
record submitted with appellant’s filings, rather than
the hard copy record in the district court clerk’s office).
Because the complete record exists and confirms
the allegations of the § 2255 motion, the district court’s
denial of relief on the basis of the absence of equitable
tolling or due diligence was unwarranted and
reasonable jurists could readily disagree with those
legal or factual conclusions by the district court. The
record exists and there is no time bar to the
application of the manifest injustice exception.
The manifest injustice of maintaining a
conviction and sentence where subsequent controlling
authority shows the invalidity of the convictions has
no time limit. Where a defendant is convicted and
punished for an offense that the law does not make
criminal, he has a claim that is cognizable under 28
U.S.C. § 2255. Davis v. United States, 417 U.S. 333,
346–47 (1974) (“If this contention is well taken, then
Davis’ conviction and punishment are for an act that
the law does not make criminal. There can be no room
for doubt that such a circumstance inherently results
in a complete miscarriage of justice and present(s)
exceptional circumstances that justify collateral relief
under [28 U.S.C. §] 2255.”); see also Mays v. United
States, 817 F.3d 728, 736 (11th Cir. 2016) (collateral
review available where defendant was convicted of
nonexistent offense); accord Alaimalo v. United States,
645 F.3d 1042, 1047 (9th Cir. 2011) (“A petitioner is
actually innocent when he was convicted for conduct
not prohibited by law.”).
1.

The district court erred in denying 28 U.S.C. §
2255 relief where the court concluded that a
defendant is not “actually innocent” even where
retroactively-effective precedent shows the

App. 26

defendant was convicted of conduct that does
not constitute a crime.
The precedent on which appellant relied to
establish his actual innocence of the offenses in this
case was retroactively-effective because it
interpretively restricted the scope of application of
criminal statutes to conform to the law as enacted by
Congress.
Although this Court has put great
emphasis on substantive decisions that
place certain conduct, classes of persons,
or punishments beyond the legislative
power of Congress, the Court has also
recognized that some substantive
decisions do not impose such restrictions.
The clearest example comes from Bousley
[v. United States, 523 U.S. 614 (1998)].
In Bousley, the Court was asked to
determine what retroactive effect should
be given to its decision in Bailey v.
United States, 516 U.S. 137 ... (1995).
Bailey considered the “use” prong of 18
U.S.C. § 924(c)(1), which imposes
increased penalties on the use of a
firearm in relation to certain crimes. The
Court held as a matter of statutory
interpretation that the “use” prong
punishes only “active employment of the
firearm” and not mere possession. 516
U.S., at 144 ... .The Court in Bousley had
no difficulty concluding that Bailey was
substantive, as it was a decision “holding
that a substantive federal criminal
statute does not reach certain conduct.”

App. 27

Bousley, supra, at 620 ...; see Schriro [v.
Summerlin, 542 U.S. 348, 354 (2004)] (“A

decision that modifies the elements of an
offense is normally substantive rather
than procedural”). The Court reached
that conclusion even though Congress
could (and later did) reverse Bailey by
amending the statute to cover possession
as well as use.

Welch v. United States, 136 S.Ct. 1257, 1267 (2016).
In Bousley, the Supreme Court held that the bar to

retroactive application of new rules on collateral
review “is inapplicable to the situation in which this
Court decides the meaning of a criminal statute
enacted by Congress.” 523 U.S. at 620.

Retroactivity in such cases is necessary because
in “it is only Congress, and not the courts, which can
make conduct criminal.” Bousley, 523 U.S. at 620–21.
Under this system, judicial decisions merely “explai[n]
[the Court’s] understanding of what the statute has
meant continuously since the date when it became
law.” Rivers v. Roadway Express, Inc., 511 U.S. 298,
313 n. 12 (1994); accord Bousley, 523 U.S. at 625
(Stevens, J., concurring in part and dissenting in part)
(Bailey “did not change the law” but “merely explained
what § 924(c) had meant ever since the statute was
enacted”). As a result, a narrowing construction to a
statute shows that charged conduct was never
unlawful because Congress never intended it to be.
Separation-of-powers concerns therefore arise when
judicial error in applying a statute results in a greater
sentence than the legislature has authorized. See
Welch, 136 S.Ct. at 1267 (“decisions that interpret a
statute are substantive if and when they meet the

App. 28
normal criteria for a substantive rule: when they
‘alte[r] the range of conduct or the class of persons that
the law punishes’”) (quoting Schriro, 542 U.S. at 353);
id at 1268 (recognizing that “a decision that saves a
vague statute by adopting a limiting construction is
substantive, so anyone who falls outside the limiting
construction can use that decision to seek relief on
collateral review”); Schriro, 542 U.S. at 351–52
(such decisions apply retroactively because they
necessarily carry a significant risk that a defendant
stands convicted of ‘an act that the law does not make
criminal or faces a punishment that the law cannot
impose upon him).

Legal Standards Governing Claims of
Actual Innocence.
The district court erroneously concluded that
actual innocence premised on retroactively-effective
authority holding that the conduct of which the
defendant was convicted is not criminal does not meet
the test for factual innocence, as opposed to mere legal
innocence. This Court has not previously rejected a
claim of actual innocence on the grounds asserted by
the district court. See, e.g., Johnson v. Fla. Dep’t of
Corr., 513 F.3d 1328, 1334 n. 10 (11th Cir. 2008)
(assuming, without reaching the question, that under
Bousley “a federal habeas petitioner should be
permitted the opportunity to raise an actual innocence
claim based on a new interpretation of the statute” of
conviction). And with specific reference to the district
court’s use of the terms “factual” and “legal” innocence,
it appears that the district court was using those
concepts in a manner contrary to case law. Factual
innocence for purposes of the application of the actual
innocence doctrine refers to the absence of evidence on

App. 29
which a properly-instructed jury would convict of a
crime.7 It does not exclude the situation where a
defendant is factually innocent because his conduct, no
matter how construed by the government, does not
violate the law. Such a defendant is also factually
innocent, and not merely legally innocent—where the
latter term relates solely to the sufficiency of evidence
presented at a particular trial.
In Davis v. United States, 417 U.S. 333, 346–47
(1974), the Supreme Court held that “[t]here can be no
room for doubt that [an intervening change in law
establishing that the movant has been convicted for a
noncriminal act] inherently results in a complete
miscarriage of justice and present[s] exceptional
circumstances that justify collateral relief under §
2255.” “This rule, or fundamental miscarriage of
justice exception, is grounded in the ‘equitable
discretion’ of habeas courts to see that federal
constitutional errors do not result in the incarceration
of innocent persons.” Herrera v. Collins, 506 U.S. 390,
404 (1993) (quoting McCleskey v. Zant, 499 U.S. 467,
494, 502 (1991) (addressing the exercise of “equitable
discretion to correct a miscarriage of justice” and
application of the doctrine where conviction of an
actually-innocent defendant has “probably resulted”));
see also Murray v. Carrier, 477 U.S. 478, 496 (1986)
(“where a constitutional violation has probably
resulted in the conviction of one who is actually
7

To establish actual innocence, a petitioner must
demonstrate that, “‘in light of all the evidence,’” it is “more likely
than not that no reasonable juror would have convicted him.”
Schlup v. Delo, 513 U.S. 298, 327-328 (1995) (quoting Friendly, Is

Innocence Irrelevant? Collateral Attack on Criminal Judgments,

38 U. Chi. L. Rev. 142, 160 (1970)).

App. 30
innocent, a federal habeas court may grant the writ
even in the absence of a showing of cause for the
procedural default”); Sawyer v. Whitley, 505 U.S. 333,
339 (1992) (“miscarriage of justice exception” applies
to actual innocence); cf. Herrera v. Collins, 506 U.S.
390, 446 (1993) (Blackmun, J., dissenting) (“The
execution of a person who can show that he is innocent
comes perilously close to simple murder.”).
In a case that does not implicate new evidence
or review of a state court judgment, the Supreme
Court’s holding that “[t]he prisoner may make the
requisite showing by establishing that under the
probative evidence he has a colorable claim of factual
innocence,” see Kuhlmann v. Wilson, 477 U.S. 436, 454
(1986), applies where the movant makes such a
showing through the application of retroactivelyeffective substantive rulings barring the imposition of
criminal punishment for the defendant’s conduct. “In
Bousley ..., we held, in the context of [28 U.S.C.] §
2255, that actual innocence may overcome a prisoner’s
failure to raise a constitutional objection on direct
review.” McQuiggin v. Perkins, 569 U.S. at 393
(explaining that the actual innocence analysis in
Bousley falls within the scope of the manifest injustice
doctrine).
Nor is the circumstance of a guilty plea in

Bousley in any way helpful to the government’s

attempt to limit the application of the actual innocence
doctrine, because even more so than with guilty pleas,
“it is feasible to make an accurate assessment of
“actual innocence” when a trial has been had. See
Bousley, 523 U.S. at 630 (Scalia, J., dissenting).
Appellant was indicted on the basis of
fundamental errors in the application of the wire fraud

App. 31
statute, 18 U.S.C. § 1343, and the Travel Act, 18
U.S.C. § 1952(a). The theory of prosecution was that
by facilitating the spending of money belonging to a
drug trafficker for the purpose of purchasing real
estate, appellant had traveled with the intent to
distribute illegal proceeds and had defrauded the
Internal Revenue Service’s right to obtain correct
information regarding taxpayers. The government
distorted the two statutes because at the time of the
conduct at issue, there was no money laundering
statute and no honest services wire fraud offense.
Lacking a valid statute on which to prosecute
appellant, a lawyer who provided assistance to a drug
dealer in regard to investments and corporate entities,
the government simply overextended wire fraud and
travel prohibitions to obtain a conviction. Because
intervening case law—including by this Court in a
subsequent trial of appellant’s codefendants—establishes that the conduct at issue did
not violate federal law and that the conviction and
lengthy imprisonment of someone who is actually
innocent of charged conduct constitutes a manifest
injustice, relief is warranted under § 2255.
Travel Act (Counts XI to XXII). Appellant was
charged under 18 U.S.C. § 1952(a)(1) with travel and
use of wire transmissions “with intent to ... distribute
the proceeds of any unlawful activity.”
As to
appellant, this was described in the indictment as
“racketeering activity.” The indictment charged as a
crime, and the jury instructions confirmed the criminal
allegation, that appellant acted “with the intent to
distribute the proceeds of an un awful activity” ... “and
thereafter ... did perform and cause to be performed
acts to distribute the proceeds of the aforementioned
unlawful activity.” DE:6-2:9. The theory of the charge

App. 32
was that by helping a criminal transact his purchases
with proceeds, appellant distributed the funds. But
the indictment and jury instructions misapprehended
the concept of distribution liability under the Travel
Act (which requires distribution to another criminal
participant) and the reasons why Congress needed in
subsequent years to enact the various provisions of the
money laundering statute.
The government failed to establish a violation of
the Travel Act, 18 U.S.C. § 1952(a)(1)(proscribing
travel in interstate commerce with the intent to
distribute the proceeds of an unlawful activity), where
there was no proof that appellant distributed the
proceeds of unlawful activity to a criminal conspirator;
instead, he simply effectuated real estate transactions
for a person later arrested for drug trafficking.
In the appeal pursued by two of appellant’s codefendants, United States v. Corona, 885 F.2d 766
(11th Cir. 1989), this Court recognized that investing
or spending money for a drug trafficker does not
constitute illegal distribution under the Travel Act:
“Distribution is not just the disposing of or spending of
the proceeds, however, but must involve disbursement

to persons who would be entitled to some proceeds
from the criminal enterprise.” Id. at 773 (emphasis

added). In the present case, the unlawful proceeds had
already been distributed to all of the conspirators
before any real estate purchase was made by the
trafficker for his own benefit.
Further, this Court explained in Corona that
distribution for purposes of the Travel Act does not
encompass the purchase and sale of goods at market
prices, as engaged in by appellant here:

App. 33
In United States v. Cole, 704 F.2d 554,
558 (11th Cir. 1983), this Court employed
the definition of “distribution” given in
United States v. Lightfoot, 506 F.2d 238
(D.C. Cir. 1974). Lightfoot explained:
[T]he word “distribute” carries a
connotation of distribution of
illegal proceeds to persons in
organized crime conspiracies.
Certainly the person receiving
them must be entitled to them for
reasons other than normal and
otherwise lawful purchase and
sale of goods at market prices.

Id. at 242. The court in Lightfoot held

that a participant in a prostitution ring
did not “distribute” proceeds of the
unlawful activity when he crossed into
another state and purchased a car from a
dealer having no knowledge of the illegal
activity. The court noted, however, that it
would have faced “a very different case if
defendant had bought the car during
interstate travel and given it to one of his
prostitutes as compensation.” Id.
885 F.2d at 773.
Appellant, unlike his codefendant in Corona did
not receive a percentage of the ownership of the real
estate, thereby entitling co-defendant Corona to a
share of the proceeds “for reasons other than normal
and otherwise lawful purchase and sale of goods at
market prices.” Corona, 885 F.2d at 773 (quoting
Lightfoot, 506 F.2d at 242; Cole, 704 F.2d at 558). As

App. 34
this Court recognized, Corona was the recipient of the
purchase; as such, the original trial judge found that
Corona was responsible under 18 U.S.C. § 2 as a
principal in the distribution of proceeds. Corona, 885
F.2d at 733. Appellant, however, was not such a
recipient, nor was there any other criminal participant
who received any funds distributed by action of LopezCastro.8
In contrast to Ray Corona, appellant was not the
recipient of any of the property he purchased. Rather,
he was simply purchasing property for another, after
the proceeds of unlawful activity had already been
distributed to all of the criminal conspirators.
Importantly, appellant – unlike Corona – received
merely a normal, non-bogus fee for his services.
Moreover, the purchases by appellant were made in
the course of normal market transactions.
As the D.C. Circuit explained in the Lightfoot
decision on which this Court relied, “The word
8

The Travel Act “was aimed primarily at organized crime
and, more specifically, at persons who reside in one State while
operating or managing illegal activities located in another.” Rewis
v. United States, 401 U.S. 808, 811 (1971) (emphasis added).
Under the Travel Act, distribution of proceeds requires something
more than merely transferring proceeds and investing them—it
requires a divestment of funds, travel for the purpose of turning
over funds to another criminal participant, rather than just
spending funds or investing them. A later federal statute was
enacted to cover the conduct appellant was accused of: Under 18
U.S.C. § 1956(a)(2)(A), “[w]hoever transports, transmits, or
transfers, or attempts to transport, transmit, or transfer a
monetary instrument or funds ... to a place in the United States
from or through a place outside the United States” with the intent
to conceal criminality is guilty of money laundering. But the
later-enacted money laundering provisions do not apply to the
charges in this case.

App. 35
‘distribute’ simply does not encompass the concept of
buying an article in the normal course of trade.”
United States v. Lightfoot, 506 F.2d 238, 241 (D.C. Cir.
1974). Instead, “the word ‘distribute’ carries a
connotation of distribution of illegal proceeds to
persons in organized crime conspiracies. Certainly the
person receiving them must be entitled to them for
reasons other than normal and otherwise lawful
purchase and sale of goods at market Prices.” Id.
(emphasis added); see id. at 242 (conviction invalid
where “government’s case on this score that the funds
with which defendant paid for the Cadillac were
derived from prostitution—one of the organized crime
offenses specifically referred to in the statute—and,
hence, that his purchase represented ‘distribut[ing]
the proceeds of [an] unlawful activity’”); see, e.g.,
Abuelhawa v. United States, 129 S.Ct. 2102 (2009)
(rejecting expansive government’s interpretation of
facilitation of offense); United States v.
Lopez-Vanegas, 493 F.3d 1305, 1313 (11th Cir. 2007)
(where “Congress has shown it is capable of addressing
acts involving controlled substances occurring outside
of the United States,” but chose not to do so, it is
impermissible to read a further extraterritorial
application into a statute).
Wire fraud (Counts XXV to XXX).
The
government neither alleged nor proved wire fraud in
violation of 18 U.S.C. § 1343. Counts XXV to XXX of
the indictment, charging that the defendants
“impeded” the agencies’ “collection of data and reports”
of specified currency transactions and transportation
of currency, fail to set forth an offense under 18 U.S.C.
§ 1343. The indictment provides that is an offense to
“defraud the United States and agencies thereof, the
United States Customs Service and the Internal

App. 36
Revenue Service, by impairing, obstructing and
defeating its lawful governmental functions of the
collection of data and reports of domestic currency
transactions.” Contrary to the indictment and the jury
instructions, an individual’s mere failure to provide
information to U.S. Customs or the IRS does not
constitute “obtaining money or property” from those
agencies within the meaning of the wire fraud statute,
18 U.S.C. § 1343.
In Cleveland v. United States, 531 U.S. 12, 26
(2000), the Supreme Court ruled that 18 U.S.C. § 1343
punishes only schemes to deprive victims of their
“money or property,” such that the “object of the fraud
... must be ‘[money or] property’ in the victim’s hands.”
Applying this definition to an unissued state license to
operate video poker machines, the Supreme Court
concluded that the state’s interest was not “property,”
but regulatory in nature. Id., 531 U.S. at 22–23. The
Supreme Court stressed additionally that the
government had not alleged that defendant Carl
Cleveland had defrauded the state “of any money to
which the State was entitled by law.” Id. at 22
(“Tellingly, as to the character of Louisiana’s stake in
its video poker licenses, the Government nowhere
alleges that Cleveland defrauded the State of any
money to which the State was entitled by law.”); see
also Pasquantino v. United States, 544 U.S. 349,
355–57 & n.2 (2005)(definition of property adopted in
Cleveland applies to the wire fraud statute, since “we
have construed identical language in the wire and mail
fraud statutes in pari materia”).
The Pasquantino Court distinguished a true tax
evasion fraud from merely concealing information.
The Supreme Court held that the right to tax revenue

App. 37
is property within the meaning of § 1343, in the
context of defendant’s smuggling of liquor across the
border and failure to declare the liquor on customs
forms, depriving Canada of the right to taxes – but

there was no such allegation or proof in the present
case. 544 U.S. at 355–57 (“Petitioners’ tax evasion

deprived Canada of that money, inflicting an economic
injury no less than had they embezzled funds from the
Canadian treasury. The object of petitioners’ scheme
was to deprive Canada of money legally due, and their
scheme thereby had as its object the deprivation of
Canada’s ‘property.’”; “The Government alleged and
proved that petitioners’ scheme aimed at depriving
Canada of money to which it was entitled by law. ...
Cleveland is therefore consistent with our conclusion
that Canada’s entitlement is ‘property’ as that word is
used in the wire fraud statute.”).

The indictment in the present case alleges “a
scheme to defraud” but fails to specify that the object
of the scheme was to deprive the United States or its
agencies of its “money or property.” As in Cleveland,
the indictment notably does not allege that appellant
had defrauded the U.S. or its agencies of “any money
[or property] to which it was entitled by law.” 531 U.S.
at 22. Moreover, as in Cleveland, where the provision
of inaccurate information did not constitute a scheme
to defraud, so too, here, the mere failure to disclose
information does not amount to wire fraud. See
United States v. Sadler, 750 F.2d 585, 591 (6th Cir.
2014)(Section 1343 is “‘limited in scope to the
protection of property rights,’ and the ethereal right to
accurate information doesn’t fit that description.
McNally, 483 U.S. at 360 ... (emphasis added). Nor
can it plausibly be said that the right to accurate
information amounts to an interest that ‘has long been

App. 38
recognized as property.’ Cleveland, 531 U.S. at 23, 121
S.Ct. 365 (internal quotation marks omitted)”).
To interpret the statute more broadly, the
Supreme Court in Cleveland concluded, would “invite
... a sweeping expansion of federal criminal jurisdiction
in the absence of a clear statement by Congress.” Id.
at 24. Similarly, in appellant’s case, finding that the
mere failure to report regulatory information
constitutes a deprivation of money or property “would
subject to federal [wire] fraud prosecution a wide
range of conduct traditionally regulated by state and
local authorities.” Id. As the Supreme Court has
made clear, “[W]hen there are two rational readings of
a criminal statute, one harsher than the other, we are
to choose the harsher only when Congress has spoken
in clear and definite language.” McNally, 483 U.S. at
359–60.
In McNally, the Supreme Court held that
§ 1341 was designed only to protect people from
schemes to deprive them fraudulently of their money
or property. 483 U.S. at 360. In holding that the fraud
conviction in McNally was invalid, the Supreme Court
further pointed out that, “as the action comes to us,

there was no charge and the jury was not required to
find that the Commonwealth itself was defrauded of
any money or property.” Id. (emphasis added). 9 As in
Following McNally, Congress enacted 18 U.S.C. § 1346,
which defined the term “scheme or artifice to defraud” to include
a scheme or artifice to deprive another of the intangible right of
honest services. The Supreme Court held in Skilling v. United
States, 130 S.Ct. 2896 (2010); Black v. United States, 130 S.Ct.
2963 (2010); and Weyhrauch v. United States, 130 S.Ct. 2971
(2010), that the “honest service” provision of 18 U.S.C. 1346 is
unconstitutionally vague. In Skilling, the Supreme Court ruled
that 1346 criminalizes only schemes to defraud the public that
involve bribes and kickbacks. “Reading the statute to proscribe a
9

App. 39

McNally, there was no charge against appellant, nor
was the jury instructed to find, that the government or
any government agency was defrauded of money or
property. In these circumstances, appellant’s wire
fraud conviction is infirm. See id. (“There are no
constructive offenses; and before one can be punished,
it must be shown that his case is plainly within the
statute.” Fasulo v. United States, 272 U.S. 620, 629
(1926). Rather than construe the statute in a manner
that leaves its outer boundaries ambiguous and
involves the Federal Government in setting standards
of disclosure and good government for local and state
officials, we read § 1341 as limited in scope to the
protection of property rights. If Congress desires to go
further, it must speak more clearly than it has.”).

“[T]his circuit has made it clear that ‘a decision
which determines that Congress never intended
certain conduct to fall within the proscription of a
criminal statute must necessarily be retroactive.’”
Lomelo v. United States, 891 F.2d 1512, 1515 n.8 (11th
Cir. 1990) (citing Belt v. United States, 868 F.2d 1208,
1211 (11th Cir. 1989)); United States v. Elkins, 885
F.2d 775, 781 (11th Cir. 1989). There can be no wire
fraud where, as here, appellant was neither alleged
nor proved to have deprived or intended to deprive the
government or government agency of money or
property. See United States v. Sadler, 750 F.3d 585
(6th Cir. 2014).

wider range of offensive conduct, we acknowledge, would raise the
due process concerns underlying the vagueness doctrine.To
preserve the statute without transgressing constitutional
limitations, we now hold that § 1346 criminalizes only the
bribe-and-kickback core of the pre-McNally case law.” Id. at
408-09.

App. 40
Before 1987, numerous courts had interpreted
the fraud statute broadly to affirm convictions
involving schemes to defraud victims of all kinds of
intangible rights, including a right to privacy and
honest elections. See, e.g., Skilling v. United States,
561 U.S. 358 (2010) (general understanding of “honest
services fraud” as of 1988); Neder v. United States, 527
U.S. 1, 22 (1999) (“fraud” as understood in 1872).
In McNally, the Supreme Court corrected this
judicially-created expanding universe of
intangible-right protections and limited the fraud
statutes’ scope to rights that sound in property law.
See McNally, 483 U.S. at 360, 107 S.Ct. 2875.
Congress responded to McNally in 1988, but even then
its response was limited. Instead of reinstating the
universe of previously protected intangible rights, it
embraced just one of them: “the intangible right of
honest services,” which protects citizens from
public-official corruption. 18 U.S.C. § 1346. See
United States v. Poirier, 321 F.3d 1024 (11th Cir.
2003)(affirming wire fraud conviction based on scheme
to defraud a county by taking money and property
from county—confidential business information
pertaining to competitive bidding process—and
depriving county of co-defendant’s honest services;
breach of duty in disclosing confidential records;
confidential business information long recognized as
property, unlike appellant’s alleged conduct, which
consisted of withholding information from a regulatory
agency; no recognition that such information was
“property” of the government, but instead was sought
pursuant to a regulatory process).

Poirier relied on Carpenter v. United States, 484

U.S. 19 (1987), in which the Supreme Court had

App. 41
affirmed wire and mail fraud convictions based on
newspaper employee’s pre-publication disclosure of
confidential business information concerning securities
transactions; Court concluded in Carpenter that the
confidential business information in the stories prior
to publication was “property”—the right to exclusive
use of the information, 484 U.S. at 26–27—protected
by the wire and mail fraud statutes. Poirier and
Carpenter are wholly unlike appellant’s case, which
does not involve the disclosure of confidential
information, but merely failing to disclose or report
information to regulatory agencies. Confidential
business information, as this Court recognized in
Carpenter, and Poirier, “has long been recognized as
property.” 321 F.3d at 1030 (quoting Carpenter, 484
U.S. at 26). This does not pertain to the information in
appellant’s case, which did not represent “money or
property in the government’s hands,” as required to
constitute wire fraud. Cleveland, 531 U.S. at 26.
Cases interpreting the mail fraud statute are
directly relevant to interpretation of the wire fraud
statute since the two are worded almost identically
and are, therefore, “analyzed in the same way.” United
States v. Slevin, 106 F.3d 1086, 1088 (2d Cir. 1996).
The Supreme Court has repeatedly articulated the rule
of construction that “when there are two rational
readings of a criminal statute, one harsher than the
other, [courts] are to choose the harsher only when
Congress has spoken in clear and definite language.”
McNally, 483 U.S. at 359-60. In particular, the
Supreme Court has instructed that this rule of lenity
is an “interpretive guide [that] is especially
appropriate in construing § 1341 [and § 1343] because,
as this case demonstrates, mail [or wire] fraud is a
predicate offense under ... the money laundering

App. 42
statute.” Cleveland, 531 U.S. at 25 (quoting Rewis v.
United States, 401 U.S. 808, 812 (1971) (Travel Act
case)) (citations omitted).
In United States v. Peter, 310 F.3d 709 (11th
Cir. 2002), the defendant pled guilty to a single count
of conspiracy to violate the criminal Rico statute,
based upon a predicate mail fraud violation for
“misrepresentations in license applications he mailed
to the Florida Division of Alcoholic Beverages &
Tobacco.” Relying on Cleveland v. United States, 531
U.S. 12, Peter argued in a coram nobis petition that
the misrepresentations alleged in his indictment to
which he pled guilty pertained solely to non-property
fraud and therefore did not constitute a crime under
Bousley v. United States, 523 U.S. 614 (1998). This
Court found that the defendant’s conduct was never a
crime and that relief must be granted despite the
guilty plea and the waiver of 28 U.S.C. § 2255
remedies.
Pursuant to Peter, the law recognizes that there
must be a vehicle to correct errors of this most
fundamental character. The question for the Peter
Court was whether the “error comprised by a district
court’s acceptance of his plea was of such a
‘fundamental character’ as to have the proceeding
itself irregular and invalid.” Peter, 310 F.3d at 712. In
granting the writ, this Court in Peter held that the
error was so fundamental as to be “jurisdictional” in
the sense that the allegations, even if proven true, did
not constitute a crime and relief was required to
remedy the manifest injustice.
Governing retroactively-applicable precedent
establishes that appellant was charged with and
convicted of non-offenses. His continued imprisonment

App. 43
on a 25-year sentence constitutes a manifest injustice
due to his actual innocence of the Travel Act and wire
fraud offenses which formed the basis for his
conviction on RICO charges. Reasonable jurists could
disagree with the district court’s decision that the §
2255 motion was time-barred, that equitable tolling
analysis precluded relief, and that his innocence of the
offense was other than factual. Hence, the Court
should grant a certificate of appealability.
2.

The district court erred in ruling that
appellant’s wire fraud convictions (for
obstructing IRS record-collection functions),
Travel Act convictions (for serving as real estate
counsel for a drug trafficker who purchased real
property), and RICO convictions (for the same
alleged fraud and travel conduct) remain valid
despite contrary precedent of this Court, where
the district court judge, who was not the trial or
sentencing judge in the criminal case, failed to
conduct an evidentiary hearing or review the
trial and sentencing record.

The district court did not dispute that appellant
was wrongly convicted of wire fraud in light of
McNally. But the district court asserted that there
was a record basis for finding appellant committed
Travel Act offenses. Reasonable jurists could disagree
with the district court’s merits conclusion for both
legal and factual reasons. First, the district court,
asserting that it did not have access to the complete
trial record, relied solely on the indictment, docket
sheet, and transcript of jury instructions in the
criminal case. See DE:7:1. Despite failing to review
any of the evidentiary record in the case, the district

App. 44
court asserted that appellant could not be actually
innocent of the Travel Act offenses because “[i]t was up
to the jury to decide whether he was merely acting as
a lawyer and receiving a fee for that. Here, there was
more than just a normal purchase and sale.” DE:7:4.
The district court errs factually in that there
was no allegation that the defendant had distributed
criminal proceeds to himself, as implied by the court’s
reference to receipt of a fee. Attorney fee payments
were not part of the prosecution, either in terms of
proof or pleading. Second, the government did not
factually claim at trial that the defendant had ever
sought or been paid more than a standard attorney fee
for real estate transactions. Thus, consideration of the
record as a whole would still leave the appellant in a
position of actual innocence of the charged offenses,
which related to arms-length purchases of real
property. Consequently, when the district court refers
to “more than just a normal purchase and sale,”
DE:7:4, if the court was referring to the charged
conduct—buying real estate—there is no record
support for the assertion. All of the real estate
purchases were from innocent sellers, according to the
undisputed evidence.
To the extent that the district court was
hypothesizing evidence in the record without a review
of the transcripts, reasonable jurists could dispute that
means of resolving (erroneously) a § 2255 motion.
Appellant correctly related the indicted theory and
evidentiary presentation by the government at trial,
and the hypothecation of other evidence at odds with
the facts would not be a basis to deny relief. In
addition, the district court’s hypothesis-based
approach is inconsistent with governing law. See Aron

App. 45

v. United States, 291 F.3d 708, 715 n.6 (11th Cir.

2002) (“If the [movant’s] allegations are not
affirmatively contradicted by the record and the claims
are not patently frivolous, the district court is required
to hold an evidentiary hearing. It is in such a hearing
that the [movant] must offer proof.”). The district
court cannot properly avoid an accurate development
of the record by hypothesizing facts that are not part
of, or which contradict, existing record facts.
An evidentiary hearing on the § 2255 claim is
required unless there is conclusive—and hence
uncontradicted—proof in the files and records of the
case showing that the claim cannot be established.
“Unless the [§ 2255] motion and the files and records
of the case conclusively show that the prisoner is
entitled to no relief, the court shall . . . grant a prompt
hearing thereon.” 28 U.S.C. § 2255(b) (emphasis
added); see also Raines v. United States, 423 F.2d 526,
529 (4th Cir. 1970) (“Unless it is clear . . . that the
prisoner is entitled to no relief, the statute makes a
hearing mandatory.”). The movant is “not required to
allege facts in his petition that would have been
equivalent to the type of proof that one would expect in
an evidentiary hearing.” Price v. Allen, 679 F.3d 1315,
1326 n. 9 (11th Cir. 2012) (emphasis added).
The Rules Governing § 2255 Proceedings make
clear that statutory language requiring a hearing
absent conclusive refutation of the claim by the record
is intended to incorporate the standards governing
evidentiary hearings in habeas corpus cases stated in
Townsend v. Sain, 372 U.S. 293, 312 (1963). See
Advisory Committee Notes to Rule 8, Rules Governing
§ 2255 Proceedings (incorporating Advisory Committee

App. 46
Notes to Rule 8 of the Rules Governing § 2254
Proceedings).
In Townsend, the Supreme Court held that the
district court must hold an evidentiary hearing if: (1)
the prisoner alleges facts that, if true, would entitle
him to relief; and (2) the relevant facts have not yet
been reliably found after a full and fair hearing. Id.,
372 U.S. at 312–13. Actual proof of those facts alleged

in the motion is not required in order to demonstrate
entitlement to a hearing. Aron, 291 F.3d at 715 n. 6.
Once the movant has alleged facts which, if true,
would entitled him to relief, a hearing is required.

Thus, unless the relevant facts have been
reliably found at a full and fair hearing and those facts
conclusively show that the movant is not entitled to
relief, a hearing is required under § 2255. See
Fontaine v. United States, 411 U.S. 213, 215 (1973)
(relying upon § 2255’s language to reverse summary
dismissal and remand for a hearing because the record
of the case did not “‘conclusively show’ that under no
circumstances could the petitioner establish facts
warranting relief under § 2255”); Aron, 219 F.3d at
715 n.6 (“If the [movant’s] allegations are not
affirmatively contradicted by the record and the claims
are not patently frivolous, the district court is required
to hold an evidentiary hearing. It is in such a hearing
that the [movant] must offer proof.”); Arredondo v.
United States, 178 F.3d 778, 782, 788–89 (6th Cir.
1999) (concluding a hearing was required because the
movant’s allegations were not “‘contradicted by the
record, inherently incredible, or conclusions rather
than statements of fact’”). For that reason, a hearing
is generally required if the motion presents a colorable
claim that arises from matters outside the record. See

App. 47

United States v. Magini, 973 F.2d 261, 264 (4th Cir.

1992) (“When a colorable . . . claim is presented, and
where material facts are in dispute involving
inconsistencies beyond the record, a hearing is
necessary.”).
Given all of these circumstances, the record in
this case did not “conclusively show that the prisoner
is entitled to no relief” on his facially meritorious
claims of actual innocence and due process violations;
consequently, a hearing was required. 28 U.S.C. §
2255(b).
3.

The district court erred in concluding that the
jury instructions in appellant’s case accurately
stated governing law where the instructions
misstated essential elements of the wire fraud
and Travel Act counts, resulting in appellant’s
conviction for lawful conduct.

The trial court erroneously instructed the jury
as to the elements of offenses under the Travel Act and
the wire fraud statute and thereby caused the jury to
return a guilty verdict on those counts as well as the
RICO counts where the verdict was premised on a
mistaken understanding of the scope of the Travel Act
to include assisting in conveying funds for real estate
purchases made by a drug trafficker and a mistaken
understanding of the scope of the wire fraud statute as
prohibiting conduct that interferes with record
collection as opposed to interests in property. The jury
was not required to find the requisite elements of the
offenses, including the specific intent components of
the omitted elements, thereby undermining the
validity of the convictions.

App. 48
Nor was there any evidence to show the
movant’s commission of any other form of charged
criminal conduct as it pertains to the RICO charges.
The district court’s failure to address the McNallyviolative wire fraud instructions and the court’s
misinterpretation of the instructions given on the
Travel Act counts present issues about which
reasonable jurists could disagree.
With regard to the void wire fraud theory on
which the jury was instructed, it is important to note
that the original trial judge in the criminal case, in
proceedings subsequent to the finality of appellant’s
conviction, recognized the error and dismissed the
fraud charges against appellant’s co-defendants. See
Corona, 885 F.2d at 767. The original judge recognized
that permitting the case to go to the jury on a theory of
non-property fraud was a fundamental error. See also
United States v. Shotts, 145 F.3d 1289, 1295-96 (11th
Cir. 1998) (business license not “property” protected by
fraud statutes); United States v. Conover, 845 F.2d
266, 271 (11th Cir. 1988), superseded by, 18 U.S.C. §
1346 (“detriment to one’s employer” not property right
protected by fraud statutes). See also United States v.
Henry, 29 F.3d 112, 113 (3d Cir. 1994) (interest in fair
bidding opportunity not property protected by fraud
statutes); United States v. Slay, 858 F.2d 1310, 1316
(8th Cir. 1988) (withholding information from a
governmental entity is insufficient to uphold a mail
fraud conviction: “Withholding valuable information
from the City is not the same thing as depriving the
City of its property, and only the latter conduct
violates the mail fraud statutes.”); United States v.
Dadanian, 856 F.2d 1391 (9th Cir. 1988) (failure to
supply property element renders indictment invalid);
United States v. Lance, 848 F.2d 1497 (10th Cir. 1988)

App. 49
(paying kickbacks does not violate the “property”
requirement); Lomelo v. United States, 891 F.2d 1512,
1516 (11th Cir. 1990) (scheme to defraud must result
in loss of money or property).
With regard to the Travel Act instructions, the
jury instructions permitted conviction on the theory of
mere distribution of tainted funds, rather than
distribution to a criminal participant as is clearly
required under this Court’s decision as to the Corona
co-defendants. United States v. Corona, 885 F.2d at
768 (“Two days after the verdicts, the Supreme Court
decided McNally v. United States, 483 U.S. 350, 107
S.Ct. 2875, 97 L.Ed.2d 292 (1987). Pursuant to
McNally’s limitations on the applicability of the mail
fraud statutes, the district court dismissed the mail
fraud counts and the mail fraud predicate acts in the
RICO count, which resulted in dismissal of the RICO
count as to Rafael, but not as to Ray.”).
The district court erroneously concluded that
the Travel Act instructions did not run afoul of the
Corona decision, because they were consistent with
Eleventh Circuit Pattern Offense Instruction 71.
DE:7:4. But the pattern instruction to which the
district court refers does not address the subsection of
the Travel Act under which appellant was convicted
and instead relates solely to travel to “promote” a
criminal enterprise, an offense with which appellant
was never charged. See 11th Cir. Pattern Inst.,
Offense Inst. 71 (requiring proof, inter alia, that
“Defendant traveled with the specific intent to
promote, manage, establish or carry on an unlawful
activity”).
Because the district court’s sole basis for
rejecting the merits of the jury instruction claim was

App. 50
premised on an erroneous reading of the Travel Act
offense charged in this case, and because the district
court offered no justification for the McNally-violative
instruction on the wire fraud counts, reasonable jurists
could dispute the district court’s denial of the jury
instruction claim.
4.

The district court erroneously found that there
was no due process violation and denied the
request for an evidentiary hearing where
appellant’s sentence was premised on invalid
convictions.

Appellant’s allegations of a due process violation
in the imposition of sentence based at least in part on
convictions for offenses of which he was actually
innocent was erroneously denied by the § 2255 judge
on the theory that the judge might not impose a
different sentence at resentencing (or might impose a
more severe sentence). See DE:7:5 (court states:
“Movants should be careful what they wish for.”). But
given that the district court recognized the apparent
unlawfulness of appellant’s four convictions for wire
fraud, and erroneously denied relief as to those and
the remaining convictions, the court’s foreclosure of
the issue of relief by asserting that its familiarity with
the movant’s bond violation case could dispose the
court to impose more than a 25-year sentence was at
least premature in the absence of an evidentiary
hearing at which appellant would have the opportunity
to show that the district court’s prejudgment of the
matter was incorrect.
Accordingly, appellant was entitled to a hearing
on the § 2255 motion, and the denial of relief with a
hearing contravened settled law. Thus, the district
court’s decision to require proof before any hearing of

App. 51
the prejudice from the due process violation was
legally erroneous. Appellant would have proven that
prejudice notwithstanding whether the judge assigned
to the case for purposes of resentencing had a negative
view of the appellant from his prosecution in another
case.
Appellant’s claim that he should be resentenced
so that his sentence rests on factually accurate
grounds and without the impact of invalid convictions
is one about which reasonable jurists could therefore
disagree. A sentencing court cannot rely on false
material assumptions without violating the Due
Process Clause. See United States v. Tucker, 404 U.S.
443 (1972); Townsend v. Burke, 334 U.S. 736 (1948);
United States v. Baylin, 696 F.2d 1030 (3d Cir. 1982);
United States v. Tobias, 662 F.2d 381 (5th Cir. 1981);
United States v. Stein, 544 F.2d 96 (2d Cir. 1976);
United States v. Espinoza, 481 F.2d 553 (5th Cir.
1973); United States v. Weston, 448 F.2d 626 (9th Cir.
1971); United States v. Malcolm, 432 F.2d 809 (2d Cir.
1970). But the “false assumptions” in each of those
cases related to a material fact, not a prediction about
some future event. See Tucker, 404 U.S. at 447
(defendant’s prior criminal record); Townsend, 334
U.S. at 740-41 (defendant’s prior criminal record);
Baylin, 696 F.2d at 1033-35 (defendant’s prior “illicit
activities”); Tobias, 662 F.2d at 388 (defendant’s intent
to manufacture large quantity of PCP; sentencing
court may not rely on “incorrect assumptions from the
evidence”); Stein, 544 F.2d at 100 (defendant’s attempt
to “fix” prior sentence and defendant’s feigned suicide
to avoid going to jail); Espinoza, 481 F.2d at 555
(defendant’s “bad record”; sentencing court may not
rely on erroneous “factual assumption”); Weston, 448
F.2d at 633-34 (defendant’s prior dealings in

App. 52
narcotics); Malcolm, 432 F.2d at 816 (defendant’s prior
criminal record; sentencing court may not rely on
“material false assumptions as to any facts”).
Appellant’s consecutive sentences rested on
materially false assumptions as to the nature and
number of convictions, the criminality of the conduct,
and other crucial factors in the sentencing decision.
Therefore, to the extent that only some of the
convictions were deemed subject to challenge,
reasonable jurists could disagree on whether
resentencing was required because the district court’s
reliance on the materially inaccurate belief that
appellant had committed substantive offenses
adversely affected the sentence. Importantly, the
standard of COA consideration applicable to denial of
an evidentiary hearing and similar errors affecting the
content of the record does not require an inquiry into
whether the movant has presented enough evidence or
affidavits to prevail. See United States v. MacDonald,
641 F.3d 596, 612-14 (4th Cir. 2011) (granting COA as
to procedural issue, where district court denied habeas
claim; district court should not have prohibited
expansion of record to include evidence received after
trial and after filing of motion); Harrison v.
Quarterman, 496 F.3d 419, 427 (5th Cir. 2007)
(defendant is not required to prove by a preponderance
of the evidence that the result of the proceedings
would have been different). See also Long v. United
States, 626 F.3d 1167, 1169–70 (11th Cir. 2010)
(“district court must develop a record sufficient to
facilitate appellate review of all issues pertinent to an
application for a certificate of appealability”).
On all four questions presented, this case meets
the standard for granting a certificate of appealability.

App. 53

See Buck v. Davis, 137 S.Ct. 759, 774 (2017)

(explaining that the COA gatekeeping function
requires a petitioner to do no more than “make a
preliminary showing that his claim was debatable”).
A court should not resolve the application for a COA on
the basis of predicting the ultimate outcome of an
appeal, but on the potential for differing views among
reasonable jurists. See Miller-El v. Cockrell, 537 U.S.
at 337. “We do not require petitioner to prove, before
the issuance of a COA, that some jurists would grant
the petition for habeas corpus. Indeed, a claim can be
debatable even though every jurist of reason might
agree, after the COA has been granted and the case
has received full consideration, that petitioner will not
prevail.” Id. at 338. Thus, courts must resolve doubts
about whether to grant a COA in favor of the movant,
and may consider the severity of the penalty in making
the decision. See Hernandez v. Johnson, 213 F.3d 243,
248 (5th Cir. 2000); Porter v. Gramley, 112 F.3d 1308,
1312 (7th Cir. 1997).
The merits and procedural rulings by the
district court—including denial of an evidentiary
hearing and failure to consider the trial and
sentencing record—are matters about which a
reasonable jurist could conclude that further review is
warranted.
WHEREFORE, Appellant Manuel Lopez-Castro
requests that the Court grant a certificate of
appealability.
Respectfully submitted,
s/ Richard C. Klugh
RICHARD C. KLUGH, ESQ.
Counsel for Appellant

App. 54
Ingraham Building
25
S.E.
2nd
Avenue, Suite 1100
Miami, Florida
33131
Tel. No. (305) 5361191
Dated: Jan. 28, 2019

App. 55
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-13218-A
________________________
MANUEL LOPEZ-CASTRO,
Petitioner/appellant,
versus
UNITED STATES OF AMERICA,
Respondent/Appellee.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(Aug. 8, 2019)
BEFORE: WILLIAM PRYOR and GRANT, Circuit
Judges.
BY THE COURT:
Manuel Lopez-Castro has filed a motion for
reconsideration, pursuant to 11th Cir. R. 22-1(c) and
27-2, of this Court’s order dated May 23, 2019, denying
his motion for a certificate of appealability in the
appeal of the dismissal, or, alternatively, denial of his
28 U.S.C. § 2255 motion to vacate. Because
Lopez-Castro has not alleged any points of law or fact

App. 56
that this Court overlooked or misapprehended in
denying his motion, his motion for reconsideration is
DENIED.

